Department of Health and Human Services
         OFFICE OF
   INSPECTOR   GENERAL




 MEDICAID MANAGED CARE AND 

           HIV/AIDS 





                        JUNE GIBBS BROWN
                        Inspector General
                    7       APRIL1998
           ‘d3a e          OEI-05-97-00210
                     OFFICE OF INSPECTOR              GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95
452, is to protect the integrity of the Department of Health and Human Services
programs as well as the health and welfare of beneficiaries served by them. This
statutory mission is carried out through a nationwide program of audits, investigations,
inspections, sanctions, and fraud alerts. The Inspector General informs the Secretary
of program and management problems and recommends legislative, regulatory, and
operational approaches to correct them.



                      Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several      components of the 

Office of Inspector General. It conducts short-term management        and program 

evaluations (called inspections) that focus on issues of concern to   the Department, the 

Congress, and the public. The inspection reports provide findings      and 

recommendations on the efficiency, vulnerability, and effectiveness     of departmental 

programs. 


OEI’s Chicago Regional Office prepared this report under the direction of William C. 

Moran, Regional Inspector General, and Natalie Coen, Deputy Regional Inspector 

General. Principal OEI staff included: 


REGION                                                                HEADQUARTERS 

Joseph L. Penkrot (Project Leader)                                           Elise Stein 

Victoria Jacobs (Lead Analyst) 

Nora Leibowitz 

Elizabeth Mages 


To obtain a copy of this report, call the Chicago Regional Office at (312) 353-4124.
                 EXECUTIVE                        SUMMARY

PURPOSE

This inspection describes how some States address the treatment       of persons with
HIV/AIDS     in Medicaid managed care.

BACKGROUND

Several factors currently affect both Medicaid financing and the treatment of Medicaid
patients with HIV/AIDS.     These factors include the devolution of Medicaid control
from Federal to State authority, the continued expansion of managed care, the
changing faces of HIV/AIDS,     and new drugs to treat HIV/AIDS.    We surveyed all
States to examine the extent of managed care coverage of Medicaid beneficiaries with
HIV/AIDS.     We also visited six States operating various managed care models to
observe how these States address concerns of persons with HIV/AIDS       in Medicaid
managed care.

FINDINGS

The Medicaid managed care organizations that are paid an AIDS-enhanced rate
appear to provide all needed medical services and drugs to AIDS patients. Those not
paid an enhanced rate report that they can not afford to continue providing these
services and drugs without adequate financial compensation.

According to our survey of State Medicaid directors, 4 of the 37 States paying
capitated managed care rates adjust the rates for providing care to persons with
AIDS; none pay an HIV risk-adjusted rate. We visited Medicaid managed care
organizations (MCOs) in these four States and in two other States and found that for
the most part, they appear to provide comprehensive medical services and necessary
drugs to enrollees with AIDS.

The MCOs       we visited which are not paid an AIDS-adjusted rate are negotiating with
their States   to receive one so that they can continue to afford to provide these services
and drugs.     In the absence of an enhanced rate, MCOs risk a major financial loss if
they attract   an inordinate number of AIDS patients by advertising their inclusion of
known HIV       specialists.

In the States we visited, the Medicaid managed care and Ryan White programs do not
coordinate the services they provide to persons with HIV/AIDS.  The health of
persons with HIV/AIDS is increasingly dependent upon the integration of these
services.




                                              i
In States we visited, Medicaid managed care respondents indicated that their States
are not engaged in any efforts to involve Ryan White programs in the transition to
managed care or to ensure coordination between the two programs. Medicaid
beneficiaries with HIV/AIDS       often depend on Ryan White providers for medical and
ancillary services vital to their medical well-being. Respondents stressed the rising
importance of these services in light of the changing demographics of the HIV/AIDS
population.   The HIV/AIDS       population is increasingly comprised of low-income
persons facing a host of social and environmental challenges which complicate their
ability to access and comply with health maintenance routines.

RECOMMEWDATIONS

The Health Care Financing Administration, in consultation with the Health Resources
and Services Administration, should develop and disseminate technical assistance and
guidance on strategies State Medicaid programs can use to establish appropriate
managed care contracts for needed medical services and costs related to these services
for beneficiaries with HIV and AIDS.

There is a lack of consensus among State Medicaid and plan administrators regarding
what services Medicaid MCOs are responsible to provide to persons with HIV and
AIDS, and how they are to be compensated for the costs of these services. Even in
the four States which pay an AIDS-adjusted rate, State Medicaid and MC0
administrators come to the negotiating table with widely divergent ideas about
appropriate AIDS rates to cover the costs of the care they provide.

The Health Care Financing Administration       (HCFA) in consultation with the Health
Resources and Services Administration      (HRSA) should develop a guidance document
for the States regarding treatment of beneficiaries with HIV and AIDS in Medicaid
managed care which includes the following information:     the services to be potentially
provided by Medicaid for persons with HIV and AIDS, based on the national
guidelines on HIV care being developed by the Department; estimates of the costs of
these services; and options on how to cover these costs in a Medicaid managed care
program. Recognizing State variation, this information would provide States with a
starting point to establish contracts with the MCOs requiring the provision of
necessary medical care to HIV/AIDS beneficiaries in return for adequate
compensation.

The Health Care Financing Administration     should urge States to require Medicaid
managed care plans to coordinate with Ryan White programs on the services they
provide to Medicaid beneficiaries with HIV/AIDS.     The Health Resources and
Services Administration   should continue to encourage Ryan White grantees to work
with Medicaid managed care plans. Together, these agencies should work to develop
strategies of coordination for Medicaid managed care and the Ryan White programs.

In the best interests of HIV/AIDS patients, MCOs and Ryan White agencies, it is
essential that parties rendering services to HIV/AIDS patients coordinate these


                                            ii
services with comprehensive care for the patients in mind. Ryan White funds fill
service gaps where no insurance or other funding streams exist to pay for care. Ryan
White providers and MCOs serving the same patients must coordinate to prevent
duplicating services and wasting scarce health care resources.

The State Medicaid agencies and Medicaid MCOs need to advise Ryan White
grantees of the services they provide to HIV/AIDS patients. With this information,
Ryan White eligible metropolitan areas and consortia will be able to assess the
HIV/AIDS    community’s needs more accurately, and consequently be able to deliver
services more rationally. Overlapping of services can be reduced and MC0 capitation
rates can more accurately represent the costs of services they provide.

Through coordination, MCOs and Ryan White providers        can provide seamless care to
patients with HIV and AIDS, addressing all their varied   health needs. By coordinating
with providers of services such as HIV counseling, HIV    education and nutritional
counseling, MCOs can better meet their prevention and     health maintenance missions.

AGENCY     COMMENTS

The Assistant Secretary for Planning and Evaluation (ASPE), HCFA and HRSA
provided comments to the draft report. While all concurred with the report’s findings
and recommendations, they offered suggestions for clarifying the report and making
other technical changes. Where appropriate, we changed the report to reflect their
comments.

The HCFA felt that providing States with aggregate HIV/AIDS         cost data would not be
useful because of the wide variations in costs and felt it inappropriate that they
develop model contract MC0 language for State Medicaid agencies.

We feel that HCFA’s current cost data complements other Departmental data on the
costs of providing services to persons with HIV/AIDS.   In terms of model Medicaid
MC0 contract language, this work is already underway and is funded by the
Department.     Presuming that States can use the model language that is suited to their
distinctive Medicaid programs, we urge HCFA to work with HRSA to disseminate this
information to States when completed.

The HRSA suggested that through HCFA, States be required to pay enhanced rates
to Medicaid providers and MCOs with significant HIV/AIDS patients and States
require Medicaid MCOs to contract with Ryan White agencies. With respect to
financing additional costs, there are a variety of options to cover the cost of
HIV/AIDS    care. Paying an enhanced rate is one possible approach to ensure this.

We recommend that HCFA and HRSA jointly provide information States can use to
make informed judgments on how best to reimburse MCOs equitably for services to
HIV/AIDS patients. We do not agree that Medicaid MCOs be required to contract
with Ryan White agencies. While in some locales, MCOs already contract with Ryan


                                            111
White providers to furnish needed services to HIV/AIDS     patients, Medicaid MCOs
should not be required to duplicate services they can already provide. We recommend
that Medicaid MCOs coordinate service delivery with Ryan White providers to avoid
duplication and ensure comprehensive care.




                                         iv
                          TABLEOFCONTENTS 


                                                                                                                               PAGE


EXECUTIVESUMMARY

INTRODUCI-ION                ................................................. 1

FINDINGS           ...................................................... 6

  l   Capitation     Rates and Service Delivery                      ............................... 6

  l   Lack of Coordination            Between Managed Care and Ryan White                                    ...........           10

RECOMMENDATIONS                       ...........................................                                                  13

APPENDICES

A: 	 Descriptions of Sampled States’ Inclusion of HIV/AIDS Patients in Medicaid
     Managed Care Plans . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A-l

B:    Descriptions      of Sampled Managed Care Plans                               . . . . . . . . . . . . . . . . . . . . . . . B-l

C: Agency Comments                . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . C-l

D: Endnotes          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . D-l
                         INTRODUCTION

PURPOSE 


This inspection describes how some States address the treatment    of persons with 

HIV/AIDS in Medicaid managed care. 


BACKGROUND 


Medicaid provides health and long term care services to low-income Americans. In 

1995, Medicaid provided health care benefits to approximately 36 million Americans 

(more than 1 in lo), costing an estimated $156.3 billion. The Federal Government 

provides matching funds to States to administer the program under Federal guidelines. 


Nearly half of the persons living with AIDS rely on Medicaid for their health care. 

The Human Rights Campaign estimates that approximately 104,000 persons with HIV 

and AIDS receive Medicaid benefits. For children with HIV/AIDS,        Medicaid provides 

90 percent of their total health care costs. In fiscal year (FY) 1997, Medicaid spent an 

estimated $3.3 billion for HIV/AIDS treatments. 


Medicare expenditures on persons with AIDS increased from an estimated 

$800 million for approximately 28,000 AIDS patients in 1994 to an estimated $1.3 

billion for FY 1997 for approximately 36,000 AIDS patients. The rise of Medicare 

expenditures for AIDS is a result of more people with AIDS becoming eligible for 

Medicare and the longer lifespans resulting from new therapies to treat AIDS. 


Medicaid financing and treatment of Medicaid patients with HIV/AIDS      has been 

profoundly affected by several factors, including: the devolution of Medicaid control, 

the continued expansion of managed care, the changing faces of HIV/AIDS, and new 

drugs to treat HIV/AIDS. 


  a	   The devolution of Medicaid control from Federal to State authority is marked
       by the proliferation of Medicaid waivers, allowing States to experiment with
       managed care service delivery. The Balanced Budget Act of 1997 eliminates
       the need for Federal waiver approval of managed care for States.’ As a result,
       States may proceed more quickly with expanding Medicaid managed care.

  0	   Increasingly, States are transforming their Medicaid programs from fee-for-
       service payment arrangements into capitated managed care programs.
       Currently, all States, with the exceptions of Alaska and Wyoming, have
       implemented managed care programs for all or segments of their Medicaid
       populations. For example, many States mandate managed care for
       beneficiaries who receive Medicaid because of their entitlement to
       Supplemental Security Income (SSI) benefits.2 (People with AIDS on


                                          1
       Medicaid are typically eligible for Medicaid through the SSI program.) As of
       June 30, 1996, 13 million Medicaid beneficiaries (40 percent of all enrollees)
       were in managed care plans.

  l	   As we documented in our earlier inspection, “The Ryan White Care Act:
       Local Implementation Issues” (OEI-05-93-00336), increasing numbers of
       women, children, heterosexuals and intravenous drug users are contracting HIV.
       These new groups present multiple service delivery problems for providers. In
       some locations, transmission of HIV now occurs more frequently from
       intravenous drug users sharing contaminated needles than from men having sex
       with men, as the disease was historically spread. This change complicates
       treatment, as this type of client may be less likely to comply with a treatment
       regimen.

  l	   New drug treatments have been effective in treating HIV/AIDS.       For most of
       those who stay on the drug regimen, powerful protease inhibitors have been
       shown to delay the onset of full-blown AIDS and mitigate other symptoms by
       increasing immune system resistance. These drugs can reduce the amount of
       virus in the blood to undetectable levels for some patients. Protease inhibitors
       are typically prescribed in combination with other drugs. However, these
       therapies are costly - up to $12,000 a year for these drugs alone, not counting
       supplemental drugs and other tests and treatments. If viral load testing and
       other monitoring is included, costs can approach $15,000 annually.

The intersection of these events presents a markedly different health care landscape 

for State Medicaid agencies, the Health Care Financing Administration    (HCFA), the 

Health Resources Service Administration   (HRSA) managed care plans, health care 

providers, Ryan White agencies and persons living with HIV/AIDS. 


l)pes of Medicaid Managed Care 


Managed care aims to reduce unnecessary services, lower health care costs and 

increase access to services. At one type of managed care plan - a health maintenance 

organization (HMO), “gatekeepers” direct patients only to needed care, usually within 

the managed care plan. Other types of managed care plans - Prepaid Health Plans 

and Health Insurance Organizations - are similar to HMOs. For the purpose of this 

evaluation, these types of managed care organizations will be treated like HMOs. The 

State pays HMOs a fixed capitated rate per member to provide health care to 

Medicaid members. The HMOs do not submit individual claims for payment for 

services rendered to the State. Roughly 75 percent of Medicaid recipients in managed 

care belong to HMO-type plans. 


In a second type of managed care, called Primary Care Case Management (PCCM) an 

individual or group of providers act as a gatekeeper. The PCCMs serve as medical 

homes for their patients and refer patients to other providers when necessary. 

Medicaid reimburses them a fixed amount per patient for case management services 



                                          2
only. The physicians acting as PCCMs bill Medicaid       on a fee-for-service   basis for all 

medical care they provide. 


Managed Care and HW/!DS 


Currently, not all Medicaid patients with HIV/AIDS are enrolled in managed care 

plans. Some State Medicaid managed care contracts specifically exclude or “carve out” 

HIV/AIDS patients and others with chronic disabilities. 


However, some Medicaid managed care plans include HIV/AIDS patients, and more 

States are looking to control medical costs for their most expensive Medicaid 

enrollees. Prior to the enactment of the Balanced Budget Act, HCFA approved 18 

Statewide demonstration projects, 10 of which require enrolling all HIV/AIDS patients 

when fully implemented.    Another 19 States received managed care waivers that 

include some or all HIV/AIDS patients. 


In addition to specific State Medicaid waivers, the Ryan White program sponsors some 

demonstration programs, called Special Projects of National Significance (SPNS). Six 

SPNS projects test new methods to deliver HIV/AIDS care. Two SPNS managed care 

projects are in Los Angeles with one each in Boston, Baltimore, North Carolina and 

New York. 


&an    white Activities 


In 1990, Congress passed the Ryan White Act as a comprehensive response to the 

HIV epidemic and its impact on individuals, families, communities, cities, and States. 

The Ryan White programs, which Congress has reauthorized through 2000, aim to 

provide health care and support services to persons with HIV/AIDS who would 

otherwise not have access to care. Unlike Medicare and Medicaid where individuals 

are specifically entitled to benefits, the Ryan White Act’s four titles and Part F direct 

resources to various entities and allow grantees maximum flexibility in the use of 

funds, particularly at the local level. 


  l     Title I provides emergency relief grants to eligible metropolitan areas (EMAs)
        disproportionately affected by the HIV epidemic. Grants are for HIV-related
        outpatient and ambulatory health and support services, including case
        management and comprehensive treatment services.

  0	    Title II provides grants to States to improve the   quality, availability and
        organization of health care and support services    for individuals and families
        with HIV disease. Title II funds service delivery    systems which provide
        essential services throughout the complex course     of HIV disease including the
        AIDS Drug Assistance Program, which provides        pharmaceutical treatments to
        persons living with HIV/AIDS.




                                            3

        States may establish HIV care consortia in areas most directly affected by the
        disease. Consortia are community-based, coordinated, continuums of care to
        which all persons with HIV/AIDS would have access. These continuums of
        care are intended to close existing gaps in services, coordinate health and
        support services, build community infrastructure and service networks with an
        emphasis on integration of expanded community resources, and provide
        continuity of care through case management.

   0	   Title III supports      early intervention services, including counseling, testing,
        referrals, clinical    and diagnostic services, and therapeutic services. It provides
        grants to private     non-profit organizations and public migrant, community, and
        homeless health       centers, hemophilia centers, and federally-qualified   health
        centers.

   l	   Title IV aims to improve and expand         comprehensive care services and increase
        access to research for children, youth,      women and families who are infected
        with or affected by HIV/AIDS.     Title     IV grantees provide or coordinate a wide
        range of services, including prevention       and education activities, primary medical
        care, psychosocial services, substance      abuse treatment, housing, child welfare,
        and legal advocacy.

  l	    Part F funds the SPNS programs, the HIV/AIDS Dental Reimbursement
        Program and AIDS Education and Training Centers.

Concerns About Medicaid Managed Care and HWjMDS

Including persons with HIV/AIDS in Medicaid managed care can be controversial.
Many persons with HIV/AIDS      are concerned that Medicaid managed care will disrupt
the networks of medical care and social service providers established over recent
years. Some of their specific concerns follow.

  l	    Managed care plans may not include providers experienced in treating
        HIV/AIDS.    These plans may also delay or deny the specialty care and
        medications that HIV/AIDS patients need.

  l	    Managed care plans may exclude essential community           providers and Ryan
        White agencies from their care networks.

  l	    In capitated plans, capitation rates may be inadequate       to provide all necessary
        HIV/AIDS    services, drugs and testing.

  l	    States and managed care plans might         not include people with special health
        care needs in planning the move from         fee-for-service Medicaid to managed
        care. The Balanced Budget Act does          not require States to solicit or consider
        input from people with special health       care needs as they make the transition to
        Medicaid managed care.


                                                4
SCOPE AND METHODOLOGY

We surveyed all State Medicaid directors3 to examine the extent of managed care
coverage of Medicaid beneficiaries with HIV/AIDS.       To describe how some States
address concerns of persons with HIV/AIDS in Medicaid managed care programs, we
conducted site visits in six States operating various managed care models under
HCFA-approved      waivers - California, Georgia, Maryland, Massachusetts, Oregon and
Utah. These States were selected to represent a mix of geographic locations,
HIV/AIDS prevalence rates and approaches to serving persons with HIV/AIDS
through managed care. We also purposely selected the four States which pay the
Medicaid managed care organizations (MCOS)~ AIDS-adjusted capitation rates in
order to examine delivery of care under an enhanced rate. Our State survey and site
visits occurred in May, June and July 1997.5

In each of these six States we examined: the rates paid to contracted MCOs for
serving persons with HIV/AIDS,     access to care, quality of care and coordination
between the Medicaid managed care and Ryan White programs. To examine these
issues, we interviewed representatives of the State Medicaid managed care offices,
representatives of the State Offices of AIDS, administrators of contracted MCOs
serving beneficiaries with AIDS, representatives of the Ryan White EMAs and/or
consortium, managed care physicians who treat beneficiaries with AIDS, local AIDS
advocacy groups, and beneficiaries with AIDS enrolled in Medicaid managed care.

We questioned these individuals about State Medicaid payments to MCOs for
beneficiaries with AIDS, delivery of certain AIDS services and drugs, the ability to
access these services and drugs, oversight of the quality of care delivered by the MCOs
to this population, and the existence of coordination activities between the MCOs and
Ryan White agencies and providers. With an eye to content applicable to persons
with HIV/AIDS, we also examined these States’ waivers, their contracts with MCOs
and informational materials MCOs provide to consumers.

We limited this inspection to a description of the delivery of care to persons with
HIV/AIDS     enrolled in Medicaid managed care. We did not compare the cost or
quality of treatment of persons with HIV/AIDS in Medicaid managed care programs
to that in fee-for-service Medicaid. We did not identify or establish a definitive
standard of treatment of persons with HIV/AIDS in Medicaid managed care. We did
not conduct any medical review of records of HIV/AIDS patients.

We conducted our review in accordance with the Quality Standards for Inspections
issued by the President’s Council on Integrity and Efficiency.




                                         5

                                   FINDINGS 


The Medicaid managed care organizations that are paid an AIDS-enhanced rate
appear to provide all needed medical services and drugs to AIDS patients. Those not
paid an enhanced capitation rate report that they can not afford to continue providing
these services and drugs without adequate financial compensation.

According to our survey of State Medicaid directors, 33 of the 37 States that pay
capitated managed care rates do not adjust the rates for providing care to persons
with AIDS. Only California (in certain counties), Maryland, Massachusetts and Utah
pay contracted managed care organizations an adjusted capitation rate for providing
care to enrollees with AIDS.6 No State adjusts the capitation rate they pay MCOs
for serving persons who are HIV-positive but not AIDS-symptomatic.7

We visited the four States which pay an AIDS-adjusted rate to examine their delivery
of AIDS care. We also examined the delivery of AIDS care in the absence of an
AIDS-adjusted rate in one county in California and in Oregon and Georgia. However,
Georgia is primarily a PCCM State and therefore uses fee-for-service reimbursement
rather than capitation. (Appendices A and B provide more detail on the States and
MCOs we visited.)

In every State we visited, physicians, MC0 administrators and AIDS advocates
emphasized the relationship between the rates received to care for persons with HIV’
and AIDS and the managed care organization’s ability to provide comprehensive,
quality care to these enrollees. According to these respondents, plans which are paid
HIV and AIDS rates are more likely to ensure that HIV and AIDS patients have
access to the services they need and HIV experienced doctors.

Plans not     paid an adjusted rate for serving patients with AIDS risk financial loss by
enrolling    these patients. Hence, they have an incentive to avoid enrolling these
patients.     For example, MCOs can deter the enrollment of persons with AIDS by not
including    HIV specialists in their network or not advertising their inclusion of these
providers.     Managed care organizations likewise have a financial disincentive to
determine      which of their members have HIV and provide services and drugs to them.

Respondents representing the plans we visited in San Francisco and Oregon which
were not paid an AIDS-adjusted capitation rate at the time of our study indicated that
the capitation rates are a disincentive for them to enroll people with AIDS. These
respondents said that while they provide all the necessary services and drugs for their
HIV and AIDS enrollees, they would not be able to continue to provide these services
and drugs and survive financially without an AIDS-adjusted rate. Both plans were
aggressively seeking an AIDS-adjusted rate from their State Medicaid offices.
(Subsequent to our study, the San Francisco MC0 we visited began receiving an
AIDS-enhanced capitation rate.)


                                             6
Almost half of Oregon’s Medicaid beneficiaries with AIDS are enrolled in 

CareOregon.    CareOregon includes reputed HIV specialists in its provider network 

and publicizes this inclusion in its consumer materials. These efforts by the plan, 

despite the lack of any enhanced capitation, to meet the needs of the Medicaid AIDS 

population leave CareOregon at a financial disadvantage in comparison to its 

competitors. CareOregon estimates losing between $750 and $1,200 monthly for each 

of their AIDS patients. 


Cost Estimates for AIDS and HIV Care 


The absence of a consensus on the cost of AIDS treatment impedes the ability of 

States and MCOs to agree on an appropriate AIDS-adjusted capitation rate. 

Physicians and plan administrators we spoke with reported estimates between $800 

and $3000 for the average monthly cost of providing all drugs and services to an AIDS 

patient. 


States typically base capitation rates on fee-for-service expenditures for a given 

Medicaid population.    However, using estimated fee-for-service expenditures to 

determine an appropriate capitation rate for treating persons with AIDS and HIV is 

problematic; there is a significant time lag between the collection and use of fee-for-

service expenditure data. Much of the available data precedes the new and expensive 

therapies now being used. State Medicaid and managed care administrators reported 

a lack of current information on the potential costs of treating persons with HIV and 

AIDS through managed care programs. 


The emergence of combination drug therapy in the past few years dramatically altered 

the costs of treating AIDS. The cost of the new drug therapy is estimated between 

$10,000 and $15,000 a year. In some cases, total treatment costs decline when an 

AIDS patient commences drug therapy because the need for more expensive 

treatment and inpatient care is reduced. In other cases, less effective drug therapy 

results in the need for more expensive care. Respondents repeatedly emphasized the 

unpredictability of current treatments and their effects on long-term costs. 


While the impact of combination drug therapy on the costs of AIDS care is not clear, 

the use of this therapy by persons with HIV has led to a dramatic increase in the costs 

of caring for this population. According to a representative of the AIDS Health Care 

Foundation it now costs almost as much to care for a person with HIV as it does to 

care for a person with AIDS. As a result, normal Medicaid capitation rates may not 

cover the costs for persons with HIV who are asymptomatic. 


Carving Protease Inhibitors and Viral Load Tests Out of the Capitation Rates 


To contend with the unpredictable and high costs of protease inhibitors, 19 of the 37 

States paying capitated rates do not require MCOs to pay for these drugs with their 

capitated payments. In States where protease inhibitors are not carved out of the 

capitation rate, financial liability for the costs of drug therapy can result in substantial
uncompensated costs to an MC0 for treating persons with HIV and AIDS.

In June 1996, HCFA advised all State Medicaid directors to ensure that their
Medicaid programs provide protease inhibitors to Medicaid beneficiaries with
HIV/AIDS.     They also instructed Medicaid directors to examine “whether capitation
rates should be adjusted to account for the introduction of new drugs such as the
protease inhibitors” if they are not excluded from the capitation rates.

Only Maryland and California (in some counties) specifically exclude Medicaid MCOs
from financial responsibility for the viral load tests which measure the effectiveness of
protease inhibitors. The tests cost between $300 to $800 annually per patient.
Advocates in at least one State, Pennsylvania, are concerned that MCOs may restrict
the frequency of viral load tests because they are not specifically compensated for
providing them.

The following table shows the capitation range our sample States pay Medicaid MCOs
to treat AIDS patients and whether protease inhibitors and viral load tests are carved
out of the rates.

 RATES      TO MCOS FOR SERVING MEDICAID        BENEFICIARIES                        WITH AIDS 

                              (as of July 1997)
State Program:          Monthly Rate Paid       Estimate4l             Is Payment   Is Payment
Managed Care Plans      to MCOs for             Enrollment of          for          for Viral
Visited                 Medicaid Enrollees      Beneficiaries with     Protease     Load Tests
                        with AIDS               AIDS for whom          Inhibitors   carved out
                                                these rates are paid   calved       of the
                                                and total plan         Out of the   Capitation
                                                enrollment as of       Capitation   Rate?
                                                July 1997              Rate?
MA: Community            $2,300 for active 
    115 active or            YES            NO
Medical Alliance               cases 
          advanced AIDS
(Rate is available to   $2,998 for advanced 
   cases
other non-targeted             cases 
          (45 others with HIV
qualifLing plans)                               diagnosis)
                                                450 total enrollees
MD: Chesapeake           $2,161 ($1,812 for 
   Initial enrollment       YES            YES
Health Plan               patients residing 
   underway at time of
                             outside of 
       study
                          Baltimore City) 

CA: San Mateo                  $1,300 
         73 out of 48,000          NO            NO
County
UT: United Health              $1,169 
         11 out of 16,131         YES            NO
Plan                                            (63 with HIV                        (chart
                                                diagnosis)                          continued
                                                                                    wxt page)




                                                8
 State Program:                    Monthly Rate Paid               Estimated                      Is Payment         Is Payment
 Managed Care Plans                to MCOs for                     Enrollment of                  for                for Viral
 Visited                           Medicaid Enrollees              Beneficiaries with             Protease           Load Tests
                                   with AIDS                       ADS for whom                   Inhibitors         carved out
                                                                   these rates are paid           calved             of the
                                                                   and total plan                 Out of the         Capitation
                                                                   enrollment as of               Capitation         Rate?
                                                                   July 1997                      Rate?
 CA: Positive                                $1,139*                400    out of 400                  YES                 NO
 HealthCare, LA
 CA: San Francisco                             $221                 3.5   out of 24,000                YES                YES
 Health Plan* *
 OR: CareOregon* *                        $104 - $625              800     out of 26,000                NO                NO

 *Note: Inpatient hospital costs are not included in this rate. California deposits the fee-for-service equivalent costs for inpatient care
for Positive HealthCare patients into a risk pool for the plan to draw from. Any savings are shared equally at year’s end

** CareOregon currently is seeking an adjusted capitation rate for AIDS patients. Effective October 1997, the San Francisco Health
Plan, after months of negotiations with the State, began receiving an enhanced capitation of $1,130 monthly for each patient who meets
the CDC definition of having AIDS.


Access to Needed Services

For the most part, Medicaid MCOs we visited appear to provide enrollees with AIDS
comprehensive medical services and necessary drugs. However, some State contracts
with MCOs guarantee services for AIDS patients but do not mention persons with
HIV. One respondent who has consulted with a variety of Medicaid MCOs on rate
calculation issues indicated that States’ failure to compensate MCOs for caring for
persons with HIV may provide the MCOs with a disincentive to detect HIV disease in
their enrollees and/or provide them with early treatment.

Although our sample MCOs appear to provide AIDS patients with access to needed
services and drugs, some respondents indicated there are barriers to receiving the care
due to MC0 preauthorization        requirements’ and limits on services. Respondents
cited limited availability of nutritional counseling, nutritional supplements and home
health services as particularly problematic.     One sample MC0 serving a rural area
requires limited duration drug prescriptions. Some drugs are needed on an ongoing
basis. When they are used up, it can take 10 days to 2 weeks to refill a prescription.
Since it is so vital for HIV/AIDS patients to stay on their drug regimen, this presents a
special problem for these patients.

Access to Providers and Specialkfi with HIV Expenmce

At the managed care organizations we visited, persons with AIDS have access to HIV-
experienced physicians and can select a specialist as their primary care physician.
Several MCOs we visited contract with university hospitals and “centers of excellence”
that have histories of specialized HIV/AIDS care. They report that primary care
physicians can refer patients for specialty care whenever necessary. Most plans say


                                                                   9
that their members services staff can direct persons to HIV care or HIV-experienced 

providers if the patients ask specifically for this referral. 


Despite this available expertise, unless they specifically ask, patients may not be aware 

which providers are HIV-experienced      or which specialties treat HIV. Most MC0 

provider directories do not indicate which physicians or clinics specialize in treating 

HIV/AIDS patients or treat them currently. The MCOs may not advertise their 

inclusion of HIV-experienced    physicians for fear of the financial consequences they 

may incur if they attract an inordinate number of HIV-positive patients for which they 

are not paid an enhanced capitation rate. 


In the States we visited, the Medicaid managed care and Ryan White programs do not 

coordinate the services they provide to persons with HIV/AIDS.  The health of 

persons with HIV/AIDS is increasingly dependent upon the integration of these 

services. 


In the States we visited, Medicaid managed care and Ryan White programs serve 

many of the same clients, but seldom consider where their programs could work 

together to serve these clients. None of the six sample States require Medicaid MCOs 

to include Ryan White providers in their care networks. Nor do these States require 

managed care organizations to coordinate with Ryan White providers on the care 

provided to mutual Medicaid patients. Neither the State Medicaid offices nor the 

MCOs we visited coordinate with Ryan White grantee agencies on the care provided 

to the same population through these programs. The State Medicaid managed care 

representatives interviewed indicated that their offices are not engaged in any pro-

active efforts to involve Ryan White programs in the transition to managed care or to 

ensure coordination between the two programs. According to our survey of all States, 

none require Medicaid MCOs to share any HIV/AIDS data with Ryan White agencies. 


State Medicaid programs are prohibited by law from disclosing the names of persons 

living with AIDS. The purpose of this prohibition is to protect patient confidentiality, 

not to prevent Medicaid programs from sharing other information or coordinating with 

Ryan White programs serving the same patients. However, this lack of 

communication and coordination is often attributed to the confidentiality requirements 

of the Medicaid law. 


Beginning with the 1996 Ryan White authorization, Ryan White Title I planning 

councils must include a representative of the State Medicaid program.    This 

representation of State Medicaid staff on the planning councils increases the 

knowledge Ryan White providers and State Medicaid staff have of each other’s 

programs and enables a more informed allocation of Ryan White funds. However, in 

some States, Medicaid representation has been minimal, translating this requirement 

into a missed opportunity for increased coordination. 





                                          10 

The Role of Ancillary   Services in HWj”DS          Care

Due to the lack of State Medicaid and Ryan White agency involvement in the
integration of Ryan White and Medicaid managed care programs, many Ryan White
providers who serve Medicaid beneficiaries are not included in MC0 provider
networks. Yet Ryan White providers are often the patients’ source for ancillary
services, such as nutrition counseling and supplements, psycho-social services, home
attendant care and case management services.

In all six sample States, staff of State and local AIDS administration offices, Ryan
White providers and managed care physicians emphasized the need to provide persons
with HIV and AIDS access to ancillary and psycho-social services when addressing
their medical needs. These respondents stressed the rising importance of these
services in light of the changing demographics of the HIV/AIDS       population.

The HIV/AIDS population is increasingly comprised of low-income persons faced with
a host of social and environmental challenges which complicate their ability to access
health care and comply with health maintenance routines. Persons challenged by
income and physical constraints often depend on ancillary services such as
transportation, day care and home attendant services to access needed medical care.

Respondents in several States noted that support services such as nutrition counseling,
food bank assistance and health education are vital to helping HIV and AIDS patients
comply with difficult drug regimens. Several respondents expressed concern that the
case management services provided by Medicaid MCOs to patients with AIDS are
focused on the utilization of plan services rather than focused on linking clients with
needed services and resources in the community.

According to a Ryan White provider, MCOs need to work with community-based
providers experienced in dealing with low-income persons with HIV and AIDS if they
are to serve the health care needs of these enrollees.

      They (the MCOs) start with the assumption that patients can follow a managed
      regimen.... We develop individualized methods to get folks to the point where they can
      take a drug regimen. For people living chaotic lives the role of the essential
      community provider is critical. It is something managed care organizations don’t
      know how to do and don’t want to do and are not really as set up to do it as are
      small, more flexible, community-based providers. It will be important for managed
      care organizations to look to Ryan White providers to do this kind of work.

Ryan white fiovidem serving MC0        Clients

Where our sample managed care organizations include Ryan White providers in their
networks, the plan administrators we interviewed are not aware of the non-medical
services their enrollees receive through these providers which are not paid for by the
plan. The absence of plan involvement in the coordination of managed care and Ryan



                                                 11 

White services by plan providers has the potential to result in the use of Ryan White 

funds for services that the MC0 is paid to provide. 


For example, in one MC0 we visited where the county AIDS clinic is a network 

provider, the clinic bills the MC0 on a fee-for-service basis for the covered medical 

services they provide to plan enrollees. The clinic uses Ryan White funds to cover the 

cost of the non-medical services they provide to their patients, including health 

education, nutrition and mental health counseling. It appeared from our interviews 

that neither party is fully aware of all of the services for which the other is responsible. 

In this case, the MC0 reports that they provide nutrition counseling and supplements 

to plan enrollees with a referral from the enrollee’s primary care provider while clinic 

administrators say they use Ryan White funds to pay for nutritional counseling and 

supplements for all of their patients who need it. 


Lack of Ryan White Experience with Managed Care and Lack of MC0 Interest to 

Contract with Ryan white Providers 


Respondents in every sample State cited Ryan White providers’ inexperience in a 

managed care environment as a barrier to coordination between Ryan White providers 

and managed care organizations. Many Ryan White providers have no experience 

negotiating contracts with large commercial entities and do not share the MCOs’ 

competitive cost-driven orientation. 


Negotiating contracts and coordination agreements between Ryan White providers and 

managed care organizations also depends on the MCOs’ commitment of resources. In 

large volume markets, managed care organizations may not view negotiating contracts 

and coordination agreements with small volume providers as a useful allocation of 

their resources. The co-chair of an EMA planning council said that “HIV is only a 

small portion of the managed care business. It is difficult for them to realize what is 

small potatoes for them is huge for us.” 


Another consideration impacting whether MCOs contract with Ryan White providers 

is MCOs’ understanding of the Ryan White program. Managed care administrators 

unaccustomed to providing care to persons with HIV and AIDS may not be aware 

how important ancillary services are to the health of these people. Several managed 

care administrators indicated that they are not familiar with Ryan White programs in 

their local community. A respondent noted that “(Ryan White) providers may not be 

sophisticated enough to market and price their services. And the managed care 

organizations may not realize they need these services.” 


To facilitate the participation of Ryan White programs in managed care, HRSA has 

distributed a variety of informational and technical assistance materials to Ryan White 

programs, sponsored managed care training conferences, and implemented a training 

and technical assistance program in a number of States with plans for future 

expansion. State Medicaid and managed care plan administrators have been invited to 

participate in HRSA’s training programs but their participation has been sporadic. 



                                            12
                    RECOMMENDATIONS

There is public concern about the spread of managed care. Some consumers fear that
managed care organizations maximize profits by withholding medical services; others
worry that MCOs are ill-equipped to provide specialty medical care to special
populations. Our review of managed care in six States that cover persons with AIDS
found that overall, the MCOs we visited appear to provide necessary medical services,
access to specialty care, tests and medications. Some MCOs provide this care despite
receiving capitation rates far below the actual cost of care. These managed care
organizations argue that they will not be able to continue to provide necessary care
unless they are paid AIDS-adjusted capitation rates.

In addition to concern over adequate payment rates, we are troubled by the absence
of coordination by States and MCOs with the networks of comprehensive services
constructed by Ryan White EMAs and consortia.          These networks of providers often
include a full range of social services available to all HIV positive individuals as well
as those with AIDS. Persons with HIV/AIDS often rely on the Ryan White
infrastructure for primary medical and ancillary services critical to their health and
well-being.

The Health Care Financing Administration, in consultation with the Health Resources
and Setices Administration,  should develop and disseminate technical assistance and
guidance on strategies State Medicaid programs can use to establish appropriate
managed care contracts for needed medical services and costs related to these services
for beneficiaries with HIV and AIDS.

There is a lack of consensus among State Medicaid and plan administrators regarding
what services Medicaid managed care organizations are responsible for providing to
persons with HIV and AIDS and how they are to be compensated for the costs of
these services. Current capitation rates in many cases do not consider changing HIV
treatment strategies. Even in the four States which pay an AIDS-adjusted rate, State
Medicaid and MC0 administrators come to the negotiating table with widely divergent
ideas about appropriate AIDS rates to cover the costs of the care they provide.

The HCFA, HRSA and others in the Department involved in HIV/AIDS              treatment
and research should develop a list of all of the services Medicaid potentially provides
that beneficiaries with HIV and AIDS need, based on the national guidelines on HIV
care being developed by the Department.      The HCFA and HRSA should disseminate
sample managed care contract language requiring provision of these services as well as
HIV prevention services, perhaps using the model language currently being developed
by HRSA and the George Washington University, Center for Health Policy Research.

The HCFA, which must provide information on actuarially sound capitation rates for
specific Medicare populations, should calculate estimates of costs of providing services
based on the developing guidelines to a patient with HIV and to one with AIDS.”


                                          13
With the quantum growth of Medicare expenditures for persons with AIDS, HCFA 

will also need this data to project future Medicare costs for these beneficiaries under 

fee-for-service and managed care. Furthermore, HCFA should have available 

information on actuarially sound Medicaid capitation rates as the Department is 

required to provide this information at State request. 


The rapidly changing nature of HIV/AIDS treatment requires the ability to react to 

dramatically increased or reduced costs or services. The HCFA’s Medicare fee-for 

service data provide information to project “real-time” capitation rates based on very 

current charge and payment information for covered medical services. At present, 

States often rely on data that is several years old and based on outmoded treatment 

practices to determine appropriate capitation rates. Although, Medicare fee-for-service 

data does not reflect the total costs of care provided to AIDS beneficiaries, this fee-

for-service data provides a starting point for calculating the costs of AIDS care 

provided in accordance with the developing national guidelines. 


The HCFA should utilize existing Departmental information to support this effort to 

collect and disseminate cost information.  Besides the considerable Medicare fee-for-

service data HCFA maintains, the Special Projects of National Significance funded by 

Ryan White can provide specific data on services and costs for treating persons with 

HIV/AIDS under a managed care model. The HRSA recently released a study of the 

adequacy of capitation rates to cover the costs of HIV care in nine states.” 

Information on the costs of HIV care under managed care and strategies to cover 

these costs was also presented at a May 1997 conference on HIV and risk adjustment 

sponsored by HRSA and HCFA and at the November 1997 Johns Hopkins AIDS 

Managed Care Conference. Other Departmental agencies may also contribute to this 

cost information based on research, service delivery or other policy considerations. 


The HCFA should then present the variety of service options to States and provide a 

basis for States to estimate covering these costs in their Medicaid managed care 

programs. For example, based on these options and estimated costs, States could 

decide whether or not to carve out certain services or care provided by specialists 

from their MC0 capitation rates, and/or carve out the protease inhibitors and viral 

load tests, or include all care in a fixed capitation rate adjusted to reflect the costs of 

this care. As a model means to disseminate this information to States, HCFA could 

use its’ June 1996 letter to all States requiring Medicaid coverage of protease 

inhibitors and options to cover their costs. 


The HCFA should disseminate this coverage and payment information to the States in 

the form of a guidance document to assist States in contracting with Medicaid 

managed care organizations, including information about how protease inhibitors and 

viral load tests are carved out of the capitation rates and how a beneficiary is able to 

get the items or services. This information would provide States with a starting point 

to establish contracts with MCOs for the provision of necessary care to beneficiaries 

with HIV and AIDS in return for adequate compensation. 




                                            14 

State Medicaid agencies would benefit from this information because few have reliable 

data for HIV and AIDS care in part because of patient confidentiality.  States will 

want to know if capitation rates should be reduced because of the decreased need for 

hospitalizations or home care, or should be increased because of changes in drug 

treatments. States also do not want HIV/AIDS centers of excellence threatened by 

inadequate funding. Furthermore, States will want to make informed decisions about 

future program expansions or carve outs. 


The Health Care Financing Administration     should urge States to require Medicaid 

managed care plans to coordinate with Ryan White programs on the services they 

provide to Medicaid beneficiaries with HIV/AIDS.     The Health Resources and 

Services Administration   should continue to encourage Ryan White grantees to work 

with Medicaid managed care plans. Together, these agencies should work to develop 

strategies of coordination for Medicaid managed care and the Ryan White programs. 


In the best interests of HIV/AIDS patients, MCOs and Ryan White agencies, it is 

essential that parties rendering services to HIV/AIDS patients coordinate these 

services with comprehensive care for the patients in mind. The Congress believes that 

both programs are needed to provide the full range of medical and other services 

HIV/AIDS     patients require. 


The State Medicaid agencies and the Medicaid MCOs need to advise Ryan White 

grantees of the services they provide to HIV/AIDS patients. With this information, 

Ryan White eligible metropolitan areas and consortia will be able to assess the 

HIV/AIDS     community’s needs more accurately, and consequently be able to deliver 

services more rationally. Overlapping of services can be reduced and MC0 capitation 

rates can more accurately represent the costs of services they provide. Ryan White 

funds fill service gaps where no insurance or other funding streams exist to pay for 

care. Ryan White providers and MCOs serving the same patients must coordinate to 

prevent duplicating services and wasting scarce health care resources. 


Persons with HIV and AIDS may transition on and off Medicaid, and rely on Ryan 

White providers for their total care in the interim. Coordination is vital to ensure the 

continuity of care for these patients. Coordination of services also reduces the 

potential for MC0 enrollees with HIV/AIDS to seek medical care elsewhere (which 

occurs even though the MCOs are paid a capitated rate to serve these patients.) All 

the individuals we interviewed who treat persons with HIV and AIDS also emphasized 

the need to integrate ancillary and medical services in order to effectively deliver 

health care to persons with HIV and AIDS. 


Non-medical services are often critical to improving the health status of a person with 

HIV or AIDS. While many of the ancillary services provided by the Ryan White 

program may fall outside of the defined set of services MCOs provide, they do not fall 

outside of the set of services needed to improve the health of a person with 

HIV/AIDS. 




                                          15 

Coordinating the services available through Ryan White and Medicaid managed care
clearly benefits the patients and ultimately benefits the MCO. In the long run,
healthier patients means a reduced need for services, including costly hospitalizations.
Indeed, this holistic approach to patient care is consistent with the managed care
philosophy.

Through coordination, MCOs and Ryan White providers        can provide seamless care to
patients with HIV and AIDS, addressing all their varied   health needs. By coordinating
with providers of services such as HIV counseling, HIV    education and nutritional
counseling, MCOs can better meet their prevention and     health maintenance missions.

The HCFA should encourage Medicaid agencies to include the Ryan White
infrastructure in the shift to Medicaid managed care. Without their inclusion, the
emergence of MCOs may result in restricting patients’ access to these needed services.

The HRSA has begun efforts to educate Ryan White grantees about Medicaid
managed care. These efforts need to emphasize that Ryan White grantees be aware
of services Medicaid capitation pays MCOs to provide and also be alert to changes in
Medicaid coverage or contracts with MCOs that may affect their clients. Through
their existing HIV/AIDS work group, HCFA and HRSA should develop a coordinated
strategy to educate both State Medicaid administrators and Ryan White grantees
about each others’ programs and the need for coordination among their contracted
providers.

AGENCY     COMMENT!3

The Assistant Secretary for Planning and Evaluation (ASPE), HCFA and HRSA
provided comments to the draft report. While all concurred with the report’s findings
and recommendations, they offered suggestions for clarifying the report and making
other technical changes. Where appropriate, we changed the report to reflect their
comments. The complete text of ASPE’s, HCFA’s AND HRSA’s comments can be
found in Appendix C.

The ASPE questioned whether there were any differences in service delivery and
access for HIV/AIDS   patients between those Medicaid MCOs receiving an enhanced
rate and those who were not. We found there is no difference at present, but are
concerned that Medicaid MCOs who do not receive enhanced capitation to deal with
the HIV/AIDS population will not be able to continue to do so.

The HCFA felt it inappropriate for HCFA to develop model contracts for Medicaid
MCOs to use in treating persons with HIV/AIDS.    Instead HCFA suggests they
develop a document outlining the specialized needs of these patients as well as likely
gaps or problem areas in service delivery.

We support this approach in conjunction with our recommendation that HCFA and
HRSA jointly develop technical guidance in these areas. Our discussion of model


                                          16
contract language did not suggest that HCFA dictate contract language to States.
Rather, it called for HCFA and HRSA to disseminate model contract information to
States that the Department is already funding.

The HCFA also argues against providing State Medicaid agencies with aggregated cost
information that HCFA collects from fee-for-service data. They suggest the wide
variations in costs makes the data suspect.

We believe that HCFA should provide States with HCFA’s current fee-for-service
information, despite the lack of State-by-State specificity, in addition to all of the other
Departmental data cited in the report. These collective data will provide States with a
more complete picture of services and payments for HIV/AIDS          patients and this
knowledge will benefit them in arriving at equitable MC0 capitation rates for these
patients.

The HCFA also felt State Medicaid agencies should be active participants in
coordinating service delivery, along with Ryan White agencies and MCOs. We agree
that Medicaid agencies have a role in this coordination and can use their contracting
authority to encourage MCOs to do so.

The HRSA raised a question about whether the way Medicaid MCOs reimburse
providers influences service delivery. We cannot comment since all the MCOs we
visited paid providers on a fee-for-service basis.

The HRSA asked about the impact of enhanced rates on providing non-medical
services. All MCOs we visited provided services like transportation and translation
services, whether or not they were receiving enhanced capitation. We did not gather
any cost or reimbursement data for these services.

The HRSA also pointed out that in addition to ancillary services, Ryan White pays for
considerable primary health care. Approximately half of all Ryan White funds is spent
on primary care. In some cases, Medicaid MCOs include Ryan White providers to
provide primary medical care and/or ancillary services.

Our report emphasizes Ryan White ancillary services since respondents expressed
concern about the lack of coordination between Medicaid MCOs and ancillary service
providers rather than concern about primary medical care.




                                           17 

                             APPENDIX                     A


Descriptions   of Sampled States’ Inclusion of HIV/AIDS    Patients in Medicaid Managed
                                         Care Plans




                                         A-l
Descriptions   of Sampled States’ Inclusion of HIV/AIDS   Patients in Medicaid   Managed
                                         Care Plans

   l	   California - California’s Medicaid program (Medi-Cal) operates several
        managed care models on a county basis. We examined the “County Organized
        Health System” model in San Mateo county, the “2-Plan” model in San
        Francisco, and “Positive HealthCare,” a limited AIDS-specific capitated
        managed care project in Los Angeles which receives Ryan White Special
        Project of National Significance funding.

        In San Mateo county, Medi-Cal beneficiaries are mandated to enroll in the
        Health Plan of San Mateo (HPSM). The HPSM receives an enhanced
        capitation rate for serving persons with AIDS. The plan has an average of 70
        members a month who have AIDS.

        Under the 2-Plan model, there is a commercial Medicaid managed care plan
        and a “Local Initiative” plan in San Francisco. We limited our inspection to the
        Local Initiative plan. The San Francisco Health Authority operates the Local
        Initiative plan through contracts with six medical groups. Although there is
        some voluntary SSI enrollment, only persons on Medi-Cal through eligibility
        criteria related to Aid to Families With Dependent Children must enroll in
        managed care in San Francisco. Until October 1997, the San Francisco Health
        Authority did not receive an enhanced rate for persons with AIDS. As of June
        1997, the plan had 35 enrollees using AIDS drugs, 28 of whom were voluntary
        SSI enrollees.

        Positive HealthCare is a managed care project for Medi-Cal beneficiaries with
        AIDS operated by the AIDS Health Care Foundation (AHF) of Los Angeles.
        All enrollment is voluntary and limited to beneficiaries who receive Medi-Cal
        through SSI eligibility criteria and meet the CDC definition of having AIDS.
        The AHF receives an enhanced capitation rate for serving these enrollees.
        There are 400 Medi-Cal enrollees with AIDS in the Positive HealthCare
        program.

  l	    Georgia - Georgia operates a PCCM managed care program called Georgia
        Better Health Care (GBHC), which covers over 500,000 members. Persons
        with HIV/AIDS     are included in this Statewide program but GBHC has no
        estimate of the number of those members. Providers are paid for services on a
        fee-for-service basis.

  l	    Marvland - Maryland began its Statewide capitated managed care program in
        July 1997. As yet, Maryland has no estimate of the number of persons with
        HIV/AIDS    enrolled. The HIV/AIDS patients are included in MCOs which are
        paid an enhanced rate for AIDS patients. All Medicaid beneficiaries are
        required to enroll in managed care except those who are dually eligible for
        Medicare and Medicaid.


                                        A-2
l	   Massachusetts - Massachusetts mandates Medicaid beneficiaries to enroll in the
     State’s Medicaid managed care program. However, beneficiaries who are
     dually enrolled in Medicare and Medicaid and others with third party liability
     are not required to enroll in managed care, but have the option to do so. All
     other beneficiaries choose either the Primary Care Clinician (PCC) program or
     a contracted MCO. The PCC program is similar to a PCCM program except
     that the PCCs receive an enhanced rate for all primary care visits rather than a
     gatekeeper fee for serving as a referral point for their patients. The MCOs are
     paid an enhanced rate for serving persons who meet a definition of having
     active or advanced AIDS if they demonstrate that they have the required
     capacity to treat these enrollees. More than 5,000 persons with AIDS enrolled
     in Medicaid managed care in Massachusetts in 19951996, however the majority
     of these enrollees were in the PCC program. The State does not have an
     estimate of the number of HIV-positive enrollees without AIDS.

l	   Oregon - The Oregon Health Plan is a Statewide managed care initiative
     covering Oregonians not covered in private health plans. Oregon has 1700
     HIV/AIDS patients enrolled in its Statewide Medicaid managed care plan.
     Oregon does not pay an enhanced rate for HIV/AIDS patients.

l	   Utah - Utah operates a capitated mandatory managed care program for all
     Medicaid beneficiaries in the four-county Salt Lake area. Outside of this area,
     beneficiaries can enroll in MCOs or in Utah’s PCCM program. The MCOs
     receive an enhanced rate for serving persons with AIDS. Utah pays an
     enhanced capitated rate for approximately 60 Medicaid beneficiaries who meet
     the State’s criteria for the AIDS-adjusted rate which is more restrictive than the
     Center for Disease Control and Prevention (CDC) definition of having AIDS.
     Additionally, the University of Utah Infectious Disease clinic reports serving
     slightly over 200 HIV-positive Medicaid recipients. Utah does not pay an
     enhanced rate for these patients.




                                      A-3 

        APPENDIX                 B


Descriptions   of Sampled Managed Care Plans




                    B-l
                     Descriptions   of Sampled Managed Care Plans


Community Medical Alliance (CMA), Boston, MA

Payment: The Community Medical Alliance is paid a per member per month 

(PMPM) capitation rate of $2300 or $2998 for individuals with “active” or “advanced” 

AIDS. The Community Medical Alliance receives one of these two AIDS adjusted 

rates for any plan enrollee who has tested positive for HIV, or has a CD4 count of 

less than 200 or CD4 percentage less than 14; and who has received treatment for one 

of several listed diagnosis associated with advanced or active AIDS within the past 

year. 


Delivery Approach:     Each CMA patient is assigned a nurse practitioner and a 

physician who use a team approach to care for the patient. The nurse practitioners 

act as the front-line care coordinators for the patients, working primarily with the 

patients in their homes. They link the patients to the other services they may need, 

such as infusion therapy or support services. The nurse practitioners together with the 

team physicians, are given a great deal of latitude to make medical decisions regarding 

the patients’ care. 



The Health Plan of San Mateo, San Mateo County, CA:

Payment: The Health Plan of San Mateo receives a PMPM capitation rate of $1300
for individuals who meet the 1993 AIDS surveillance case definition of AIDS. The
 1993 CDC definition includes all HIV-infected persons who have ~200 CD4+ T-
lymphocytes, or a CD4+ T-lymphocyte percentage of total lymphocytes of < 14 and
pulmonary tuberculosis, recurrent pneumonia, or invasive cervical cancer, in addition
to the clinical conditions included in the AIDS surveillance case definition published in
1987.

Delivery Approach:    All AIDS enrollees who meet the 1993 CDC definition of having
AIDS are referred to as “special members” in the health plan. The special members
do not have to select and/or use a primary care provider to receive care under the
plan. Special members can seek care from HIV specialists within the provider
network of the plan without having a referral from another provider. Most of the
AIDS enrollees in the plan receive their care from the Edison Clinic of the San Mateo
County General Hospital. The Edison Clinic provides a full range of HIV medical
and ancillary care to their patients using a combination of Medicaid and Ryan White
funding.


United HealthCare       of Utah, Utah:



                                        B-2 

Payment: United HealthCare of Utah receives a PMPM capitation rate of $1169 for
all individuals who have = or <200 CD4+ T-lymphocytes.        This definition of
qualifying for the enhanced rate is more restrictive than the 1993 CDC definition.

DeliveIy Approach:     Medicaid beneficiaries enrolled in the United HealthCare plan
do not have to choose a primary care provider. Plan members can seek care from any
primary care provider in the plan’s network, including specialists if the specialist has
agreed to serve as a primary care provider and is listed in the primary care provider
directory. HIV specialists are not identified as such in the provider directory but the
member services staff of the plan can direct interested patients to these providers.
The plan has several HIV specialists within its network who serve as primary care
providers to individuals with HIV or AIDS. Most of the plan enrollees with HIV and
AIDS seek their care from the University of Utah’s Infectious Diseases Clinic which is
staffed by experienced HIV specialists.


Positive HealthCare,     AIDS Health Care Foundation           (AHF), Los Angeles,
CA:

Payment: The AIDS HealthCare Foundation receives a PMPM capitation rate of 

$1139 for all individuals who meet the 1993 CDC definition and who are receiving 

Medical through the SSI program. 


Delivery Approach:     Individuals must select a primary care provider on staff with 

AHF within 90 days of enrolling in the Positive HealthCare program. The primary 

care providers are located in four AI-IF outpatient clinics. Registered nurse case 

managers provide case management services to the patients in an interdisciplinary 

team approach with the primary care physicians and other health care professionals 

employed by AHF in the clinics. Through case management, patients have access to a 

wide spectrum of medical and ancillary services, including mental health benefits, 

nutrition services, advocacy, HIV education and referrals to community resources. This 

program is one of five Special Projects of National Significance, funded by HRSA to 

test an innovative model for delivering HIV/AIDS care in a managed care setting. 



San Francisco Health Plan, San Francisco, CA:

Payment: At the time of our study, the San Francisco Health Plan received $221.89
PMPM for individuals enrolled in its plan who are eligible for Medical through the
SSI program and $88 PMPM for individuals eligible for Medical through criteria
related to the former Aid to Families with Dependent Children program. The plan
receives the $88 PMPM capitation rate for 7 of the 35 plan enrollees requiring AIDS
drug therapy. Effective October 1997, the San Francisco Health Plan, after months of
negotiations with the State, began receiving an enhanced capitation of $1,130.64
monthly for each patient who meets the CDC definition of having AIDS.



                                       B-3 

Delivery Approach:     Plan members are required to select a primary care provider
from the primary care provider directory. Individuals may select a specialist to serve
as their primary care provider if the specialist has elected to be listed as a primary
care provider in the directory. The HIV specialists are not identified as such in the
directories. Every provider in the San Francisco Health Plan network is part of a
medical group. The Plan contracts with six medical groups, each of which is affiliated
with a hospital. Individuals are required to seek their care from the specialists and
hospital within the medical group of their primary care provider. The University of
California at San Francisco and San Francisco General Hospital are both part of
medical groups under contract with the San Francisco Health Plan. These two
institutions are considered centers of excellence in HIV care.


CareOregon, Portland OR

Payment: CareOregon does not receive an enhanced rate for treating HIV or AIDS 

patients. Oregon Medicaid pays CareOregon between $104.40 and $625.59 PMPM 

based on the recipient’s eligibility to Medicaid. CareOregon receives the lowest rate 

for the majority of its’ AIDS patients. The capitation rate includes all medical services 

(except dental and mental health) and drugs, including protease inhibitors. 

CareOregon has 800 AIDS patients, approximately half the State’s AIDS population, 

among its’ 26,000 Medicaid clients. 


Delivery Approach:    This MC0 includes Oregon Health Sciences University (OHSU,) 

an HIV center of excellence, and the Multnomah County Health Department Clinics, 

a large provider of HIV and AIDS services in its’ network. Patients choose their 

primary care provider. The CareOregon AIDS patients have chosen either OHSU, 

the Multnomah County Health Department or other physicians for primary care in 

approximately equal numbers. 



Chesapeake Health Plan, Baltimore MD

Payment: Maryland Medicaid pays MCOs an enhanced rate to treat patients with
AIDS. The MCOs receive $2161 PMPM for patients residing in Baltimore and $1812
for those outside Baltimore. Medicaid carves out protease inhibitors and viral load
testing from the capitation and pays these on a fee-for-service basis. Chesapeake
estimates 90 AIDS patients in their 17,000 Medicaid enrollees. Chesapeake pays 98
per cent of the capitation to Johns Hopkins’ Moore Clinic to treat members with
AIDS.

Delivery Approach:    Chesapeake contracts with the Moore Clinic and the University
of Maryland and a few other HIV specialists throughout the State. The bulk of the
AIDS patients are treated at the Moore Clinic which is devoted exclusively to HIV
and AIDS care. The Chesapeake AIDS patients can select a specialist as their
primary care provider, but those with HIV cannot.


                                         B-4
APPENDIX            C


  Agency Comments




      C-l
DLPARTMENTOF HRALTH 6 HUXAN SERWCES   ’




                           c-2
         ..

Page2-JusioC+BbsRmwn




                       c-3
   DEPARTMENT OF HEALTH & HUMAN SERVICES                             Health Care Financing   Administration



                                                                     The Administrator
                                                                     Washington,    D.C.   20201




DATE:

TO: 	        June Gibbs Brown
             Inspector General

FROM: 	      Nancy-Ann Min DeParle
             Administrator

SUBJECT: 	 Office of Inspector General Draft Report: “Medicaid ManagedCare and
           HIV/AIDS,” (OEI-05-97-00210)

We reviewed the above-referencedreport that describeshow somestatesaddressthe 

treatment of personswith HIV/AIDS in Medicaid managedcare. The report found that 

Medicaid managedcare organizations (MCOs) that are paid an AIDS-enhanced rate 

appearto provide all neededmedical servicesand drugs to AIDS patients. MCOs not 

paid an enhancedrate report that they cannot afford to continue providing theseservices 

and drugs without adequatefinancial compensation. The report also found in the states 

visited, the Medicaid managedcare and Ryan White programs do not coordinate the 

servicesthey provide to personswith HIV/AIDS. 


The Health Care Financing Administration (HCFA) concurswith both of the OIG report 

recommendations. Our detailed commentsare as follows: 


DIG Recommendation 

The Health Care Financing Administration, in consultation with the Health Resourcesand 

ServicesAdministration, should develop and disseminatetechnical assistanceand 

guidance on strategiesstateMedicaid programscan use to establish appropriate managed 

care contracts for neededmedical servicesand costsrelated to theseservicesfor 

beneficiaries with HIV/AIDS. 


HCFMia.wms 

We concur. HCFA could develop a documentproviding information about the 

specialized needsof personswith HIV/AIDS, and likely gapsor problem areasin services 

provided under managedcare. However, it is inappropriate for HCFA to develop model 

contracts since the factors which influence contract provisions (e.g., existing provider 

networks, existing accessmeasures,statefunding, political pressures,etc.) vary greatly 

from stateto state. 



                                           c-4
The Medicaid program in each statemust cover certain mandatory servicesand may 

cover other optional services. The servicesmay be coveredthrough managedcare or fee-

for-service. It is important to look at both managedcare contracts and fee-for-service 

contracts to determine where coordination should occur. Statescould use the information 

developed by HCFA, modified by state-specificcoveragepolicies to develop contract 

language. 


The recommendation statesthat the estimatesof the costsof servicesfor personswith 

HIV/AIDS be provided. These costsare not available to HCFA on a state-by-statebasis. 

The state-by-stateanalysis would be useful in developing managedcare contracts. The 

wide variation in costs among statescould be misleading. In addition, it is not clear what 

is meant by providing “options” on how to cover thesecostsin a Medicaid managed care 

program. 


OIGRecommendation 

The Health Care Financing Administration should urge statesto require Medicaid 

managedcare plans to coordinate with Ryan White programs on the servicesthey provide 

to Medicaid beneficiaries with HIV/AIDS. The Health Resourcesand Services 

Administration should continue to encourageRyan White granteesto work with Medicaid 

MCOs. Together, these agenciesshould work to develop strategiesof coordination for 

Medicaid managedcare and the Ryan White programs. 


HCFA Response 

We concur. Although coordination with managedcareplans is useful, it is critical that 

stateMedicaid agencies,which manageand monitor the implementation of Medicaid 

managedcare programs, be active participants in any coordination activities with Ryan 

White agencies. HCFA has been working to encouragetheserelationships. It is the state, 

not managed care plans, that could offer Ryan White granteesthe most objective 

description of the servicesMCOs should provide and it is critical that the Medicaid 

agenciesget feedback if servicesare not being provided. Although coordination about 

the availability of related servicesor coordination on a case-by-casebasis is important, 

the more critical discussionsexist between Ryan White agenciesand the state Medicaid 

agenciesm describing which servicesshould be provided by Medicaid, either through 

MCOs or fee-for-service. 


Technical Comments 

Page 14 suggeststhat HCFA distribute coverageand payment guidance. The guidance 

should also include information about how proteaseinhibitors and viral load tests are 

carved out of the capitation rate and how a beneficiary is able to get the item or services. 


                                            C-5
   DEPARTMENT OF HEALTH & HUMAN SERVICES                                  Public Health   Service


                                                                          Health Resources and
                                                                           Services Administration
                                                                          Rockville MD 20857
  FEB   25    I998

TO:              Inspector      General,      DHHS 

FROM:           Acting       Deputy   Administrator 

SUBJECT:         Office    of Inspector  General (OIG) Draft            Report, 

                 "Medicaid    Managed Care and HIV/AIDS."
                  (Code OEI-05-97-00210)


Attached  is HRSA's response  to your memorandum dated December                                     17,
1997, requesting   comments on the subject draft report.
Questions       may be referred            to Michael   Herbst   on 443-5256.




Attachments




                                                C-6 

        JiRALTH RESOURCES AND SERVICES ADMINIST=TION  C(3Q4ENTS ON
    m      OIG DRAFT REPORT, "MEDICAID WAGED CAl?l? AND HIV/AIDS."
                           (GIN .. 0 EI-05-97-00210



      RATI CmNTS.       .

The report   makes some extremely               important      points  about the
delivery   of care to people with               HIV/AIDS     in Medicaid    managed
care.
HRSA agrees to consult               with HCFA regarding           the OIG recommendation
that HCFA develop            and disseminate         technical       assistance       and
guidance       on strategies         State Medicaid         programs can use to
establish       appropriate         managed care contracts             for needed medical
services       and costs related           to these services           for beneficiaries
with HIV and AIDS.               HRSA agrees that an AIDS enhanced rate can
provide      incentives        for managed care organizations                  (MCO) to
provide      all needed medical            services     and drugs to AIDS patients.
As highlighted          in the report,          people living        with HIV/AIDS require
a full      continuum      of medical        and enabling/ancillary             services.
HRSA has already           initiated       several     projects      including      one with
George Washington            University       Medical      Center for Health Policy
Studies      to develop model contract               language      for State Medicaid
agencies.         In addition,        HRSA recently         published      a report,      "HIV
Capitation        Risk Adjustment,"           which documents the findings                of a
two-day      conference        on risk adjustment.              The report      has been
distributed         widely     and has been frequently             cited     as a reference
guide on the issues of risk adjustment                        for HIV and AIDS.           The OIG
should also discuss              the impact of the enhanced rate on the
provision       of non-medical          services.        In addition,        the report      is
silent      on the reimbursement             paid to AIDS providers             by the MCOs,
who also face major financial                   losses if they are not adequately
reimbursed.

HRSA agrees that Medicaid          managed care plans and Ryan White
agencies      must be integrated     in order to provide        seamless,
coordinated       care to people living      with HIV/AIDS.        However, HCFA
should urge States        to require    Medicaid   managed care plans to
contract      with Ryan White agencies        to avoid duplication        of effort.
Several     times in the report,       the OIG states      that Ryan White
providers      are the patient's     source of ancillary        care, which could
give the impression         that these are the only services           they
provide.       In fact,   more than 50% of Ryan White CARE Act funds are
expended on primary         care and other medical       services.       People
living    with HIV/AIDS depend on Ryan White providers               for the full
continuum      of primary     care and ancillary     services.

                                               c-7
The report    documents        the need and benefit   for rate adjustments  or
enhancement,     but fails        to recommend that HCFA work with the State
Medicaid    agencies    to     assure that there is an appropriate     rate
adjustment    to managed         care companies and providers  who serve a
significant     HIV/AIDS       population.
OIG RKOMMENQA'J'ION,.
The Health   Resources  and Services              Administration       should continue
to encourage   Ryan White grantees               to work with      Medicaid   managed
care plans.
   SA RESPONSE..
HRSA concurs.    HRSA has initiated    a technical                 assistance      and
training  program to assist     Ryan White agencies                 to participate         in
managed care.
                  .
OIG RECOMMENDATION,
Together   these agencies           (HCFA and HRSA) should work to develop 

strategies    of coordination          for Medicaid managed care and the Ryan 

White programs. 

HRSA RESPONSE; 

HRSA concurs.       The technical      assistance    and training      program HRSA 

has initiated      also seeks to develop collaborative            relationships 

between key stakeholders         including     State Medicaid     agencies, 

Medicaid     managed care plans and Ryan White agencies.                 HRSA is 

planning     to expand this program to ten additional             states     in the 

next six months. 

TECHNICAL COMMENTS; 

Clarification        is needed under the section             summarizing     the Ryan 

White CARE Act.          The section     describing      Title    II should be 

expanded to include          the AIDS Drug Assistance           Program (ADAP) which 

provides      pharmaceutical      treatments      to people living        with 

HIV/AIDS.        Further   detail    is also needed on the programs funded 

under Part F, as most readers will                probably     not be familiar           with 

these programs.          It is the Title       III program,       not Title      III(b). 

Attached      is a fact sheet on the HIV/AIDS Bureau which describes 

the programs       funded by the CARE Act. 

The description        of the Special    Projects         of National Significance 

(SPNS) managed        care projects   gives the          reader the impression       that 



                                              C-8
they are managed care plans.          The Ryan White CARE Act supports
demonstration    and evaluation      projects     through   the SPNS. Six of
the SPNS projects     are funded to test new-methods           of delivering
HIV/AIDS care in managed care settings.               These projects    are
located    in Los Angeles,    Boston,    Baltimore,     North Carolina,      and
New York.




                                        c-9
                                                  HIV/AIDS Bureau
                        The HIV/AIDS Bureau of the Health Resources and Services Administration (HRSA),
‘..             administers the Ryan White Comprehensive AIDS Resources Emergency (CARE) Act. The CARE
                Act was signed Into law On August 78,199O to Improve the quality and availability of care for people
                with HIV/AIDS and their families. Amended and reauthorized in May 1996, the Act is named after
               the Indiana teenager;Ayan White; who became an active public educator on HIV/AIDS after he
               contracted the disease. He died the same year the legislation was passed.
                      Within the HIV/AIDS Bureau, the Division of Service Systems administers Titfes I. II and the
               AIDS Drug Assistance Program (ADAP); the Division of Community Based Programs administers
               Titles Ill, IV and the HIV/AIDS Der$al Reimbursement Program: and the Division of Training and
               Technical Assistance administers the AIDS Education and Training Center (AETC) Program. The
               Sureau’s Office of Science & Epidemiology administers the Special Projects of National Significance
               (SPNS) Program.
                     HRSA’s HIV/AIDS Bureau conducts programs to benefit low-income, uninsured and
               underinsured individuals and families affected by HIV/AIDS. Total appropriations for HRSA-funded
               CARE Act programs from W 1991 through Ff 1997 was $3.8 billion.




              HRSA’s HIV/AIDS Bureau administers                    ately affected by the HIV epidemic. These areas
       HIV/AIDS programs under four titles and Part F               are eligible for Tiie I formula grants if they have
       of the CARE Acl                                              reported more than 2,000 AIDS cases in the
                                                                    preceding 5 years, and if they have a population
          Title I 	 HlV emergency relief grant program
           l
                                                                    of at least 500,000 (this provision does not apply
                      foreligiblemetropolitan areas (EMAs)          to EMAs funded prior to FY 1997).
       l  Title II .- HIV care grants to States                            Grants are awarded to the chief elected
       l  Title Ill HIV early intervention services                official (CEO) of the city or county that adminis­
       l  Title IV Coordinated HIV services and                    ters the health agency providing services to the
                      access to research for children,             greatest number of people living with HIV in the
                                                                   EMA. The CEO must establish an HIV Health
                      youth, women, and families
                                                                   Sewices Planning Council that is representative
      * PartF
       l              Special Projects of National                 of the local epidemic and includes representa­
                      Significance (SPNS) Program:                 tives from specific groups such as health care
                      HIV/AIDS Dental Reimburse­                   agencies and community-based providers. At
                     ment Program: AIDS Education                  least 25 percent of voting members must be
                     and Training Centers (AtTCs)                  people living with HIV disease. The planning
                                                                   council sets priorities for the allocation of funds
       Title        I                                              within the EMA, develops a comprehensive plan,
            Title I funding provides formula and supple-           and assesses the grantee’s administrative
       mental grants to EMAs that are disproportion­               mechanism in allocating funds.



                                                                  c - 10
               Community-baseo services funded under                 through a Health Insurance Continuation
       Title I may inctude:                                          Program (HICP):
      l  -Outpatient health care, including medical and             Pharmaceutical treatments through an AlDS
                                                                     l	

           dental care and developmental and rehabili­              Drug Assistance Program (ADAP);
           tative services;                                         Localconsotiathatassessneeds,organ~~
                                                                     l


      l	   Support services such as case management                 defier HlV services in consultation with service
           home health and hospice care, housing and            . providers, and contract forservices; and
           transportation assistance, nutrition services,        l  Oirect health and support senkes.
          and day or respite care: and
                                                                        Since Ff 1991, HRSA has awarded more
     l	   Inpatient case management services that                than $1.26 billion in Title II grants. In N 1997,
          expedite discharge and prevent unnecessary             $397.9 million was awarded, which includes
          hospitalization.     :                                3167 million in ADAP funding.
              Providers may in&de public or nonprofti
     entities: private for-profit entities are eligible only    Title III
     if they are the only available provider of quality                We Ill of the CARE Act supports outpa­
     HIV care in the area.                                      tient HIV early intervention services for low-
              When the first Title I grants were awarded in     income, medically underserved people in exist­
    FY 1991.16 EMAs were identified: in FY 1997,                ing primary care systems. Medical, educational,
    therewere49EMAsin 19States. PuertoRico. and                 and psychosocial services are designed to pm­
    the District of Columbia EiWs received S429.3               vent the further spread of HIV/AIDS, delay the c
    million in Title I formula and supplemental funds in        onset of illness, facilitate access to services,
    I? 1997. Since FY 1997, more than $1.8 billion in           and provide psychosocial support to people with
    Title I grants has been awarded.                            HIV/AIDS.
                                                                       Since N 1991, $369.4 million has been
    -me  II                                                    awarded underTitle Ill; in N 1997, $69.5 million
        Title If provides formula grants to States,            was awarded to 166 facilities in 37 States,
 the Districtof Columbia, Puerto Rico and eligible             Puerto Rico,andtheDistrictofColumbia      Nearly
 U.S. territories to provide health care and                   one-half was awarded to community and mi­
 support services for people living with HIV                   granthealthceoters:theotherhalffunded     home-
 disease. Grants are awarded to the State agency               less programs, local health departments, family
designated by the governor to administerTitle II,              planning programs, comprehensive hemophilia
usually thehealth department.                                  diagnostic and treatment centers, Federally-
        Grants are awarded based on: (a) the                   qualified health centers, and private nonprofits.
estimated number of living AIDS cases in the
State or territory: and (b) the estimated number               Title IV
of living AIDS cases within the State or territory                    Title IV programs focusbn the develop­
but outside of Title I EMAs. States with more                  ment and operation of systems of primary health
than 1 percent of the total AIDS cases reported                care and social services that benefit children,
nationally during the previous 2 years must                    youth, and women living with HIV and their
contribute their own resources to match the                    families.     These systems aim at building
Federal grant, based on a yearly formula.                      .comprehensive, community-based, coordinated
                                                                programs that include both health and social
       Title II funds may be used to support a
                                                               Outreach elements, as well as prevention. Title
wide range of services. including:
                                                               IV also works to develop new ways to effectively
l   Home and community-based health care and                   link these care systems with HIV research sup-
           support setices:                                    ported by the National Institutes of Health   (NIH)
l          Continuation of hea!:h insurance   coverage         and other OrganitatiOnS.



                                                                     c-   11
         Title IV, in collaboration with the Special      1996, Integrated Service Deiivery Models were
  Projects of National Significance          (SPNS)      funded to create formal linkages to integrate
  Program, funds The Women’s Initiative for HIV          health and support services.
 Care and Reduction of Perinataf HIV Transmis­                 The SPNS Program has collabomted with
 sion (WIN). This initiativesupports 3yearcoop-          the Substance Abuse and MentalHealth Services
 eratlve agreements to develop models of care            Administration and the National lnstftute of MentaJ
 that enhance outreach, HIV counseling and               Health, NIH, to co-fund 11 mental health services
 testing services for women of childbearing age,         demonstration projects for people living with HIV/
 especially during pregnancy, and offers perinatal       AIDS.     Projects are funded for 4 years and
 ZDV prophylaxis and maintenance of ongoing              received approximately $4.6 million in p/ 1996.
care for mothers with HfV and their children.                  Since FY 1991, $60.6 million has been
Title IV also collaborates with the National Institute   awarded in SPNS Program funding. in N 1996,
of Child Health and Hufnan Development, NIH, to          62 grantees received more than $25 million.
support models of care and ,research investigating
HIV disease and utilizaticn of care among adoles­         AIDS Education and Training Centers
cents with or at risk for HIV.                                  The AIDS Education and Training Center
        In FY 1997, 336 million was awarded to            (AETC) Program is a naticnal network of 15
projects in 23 States, the District of Columbia,          centers that conduct targeted. multi-disciplinary
and Puerto Rico. More than eighty percent of              education and training programs for health care
the clients are from poor, minority families with         providers in designated gecgraphic areas. The
limited access to transportation and housing.            AETCs increase the numizer of health care
Beginning in 1988, the Pediatric AIDS Demon­             providers who are educatti and motivated to
stration Program and, since 1994, the CARE Act           counsel, diagnose, treat, and manage care for
Title IV program, have provided more than S200           individuals with HIV/AIDS xd to help prevent
million to States and communities.                       high risk behaviors that may lead to infection.
                                                                AETCs collaborate with CARE Act-funded
Part F                                                   organizations, Area Health Education Centers
                                                         (AHECs), community-based HIV/AIDS organi­
Special Projects of National Significance
                                                         zations, medical and health professional schools,
(SPNS) Program                                           local hospitals. health departments, community
       The Special Projects of National Signifi­         and migrant health centers, medical societies,
cance (SPNS) Program supports the develop­               and other professional organizations.
ment of innovative models of HIV/AIDS care,                     From FY 1987 to 1996. HRSA received
designed to address special care needs of                $153.7 million to fund the AETCs. In N 1997,
individuals with HIV/AIDS in minority and hard-to-       the AETCs received $16.3 nillion in funding.
reach populations. These projects are designed
to be replicable in other parts of the country, and      HIV/AIDS Dental Reimbursement Program
have a strong evaluation component                             HRSA’s HIV/AIDS Dental Reimburse­
       SPNS Program models focus on man-                 ment Program assists accredited dental
aged care; infrastructuredevelopment; training:          schools and post-doctoral dental programs
access to care through reduction of sociocul­            with uncompensated costs incurred in provid­
tural, financial, and transportation barriers for        ing oral health treatment to HIV-positive
rural residents, women. adolescents,            and      patients. Eligible applicants must have docu­
children; legal advocaqz comprehensive           pri­    mented uncompensated costs of oral health
mary care (including managed care); integra­             care for HIV-positive pencns. and must be
tion of mental health and primary care services:         accredited by the Commission on Dental
and services forcorrecticnal populations. In Fy          Accreditation. Funding t2kes into account the


                                                         c- 12
                                                                 -

 number of patients served by each individual       te!ephone consulting service is available excju­
applicant and unreimbursed oral health costs,       sively to primary care providers. Operating out
as compared to the total number of patients         of San Francisco General Hospital, the service
served and total costs incurred by all eligible     offers a toll-free number (800-933-3413) from
applicants.                                         lo:30 AM-&00 PM EST Monday through Friday.
      Since FY 1994, $23.4 million has been               A multidisciplinary consulting team of
awarded to the HIV/AIDS Dental Reimbursement        physicians, nurse practitioners, and clinical
Program: in N 1997, $75 mIlion was allocated to     pharmacists is available to answer HIV-related
support dental cam at 103 eligible institutions.   clinical management questions. After hours,
                                                   primary care providers may leave a recorded
Other HRSA HIV/AIDS Progrqms                       question that is later answered by a consultant
                                                   Approximately 1,200 calls are received per
National HIV Telephbne Consulting Service
                                                   quarter. Through Ott 1.1997, more than 18,000
       Through the Western AIDS Education and      calls covering every aspect of HIV disease and
Training Center funded by HASA, an on-line         treatment were received.




                                                   c - 13
APPENDIX        D


     Endnotes




     D-l
1. 	    States must exempt recipients who are also eligible under Medicare and
        children with special needs from mandatory enrollment. These recipients may
        enroll in Medicaid managed care plans on a voluntary basis.

2. 	    The Supplemental Security Income program provides financial assistance to
        needy aged, blind, and disabled persons. In many States, once individuals are
        eligible for both Medicare and Medicaid, they are disenrolled from managed
        care.

3. 	    Medicaid directors from Washington D.C. and Puerto Rico also were included
        in our survey for a total of 52 respondents.

4. 	    For this report, we use the term “managed care organization” to include the
        primary care case management plan operated by Georgia Medicaid and known
        as Georgia Better Health Care.

5.      All of the information   in this report is as of July 1997.

6. 	    Arizona pays managed care plans a supplemental         $634 PMPM for Medicaid
        enrollees who are using protease inhibitor drugs.

7. 	    Beginning in July 1997, Massachusetts began paying the Community Medical
        Alliance, an MC0 specializing in AIDS care, an AIDS-adjusted capitation rate
        for individuals with “active” or “advanced” AIDS. The Community Medical
        Alliance receives an AIDS adjusted rate for any plan enrollee who has tested
        positive for HIV, or has a CD4 count of less than 200 or CD4 percentage less
        than 14; and who has received treatment for one of several listed diagnosis
        associated with advanced or active AIDS within the past year. This criteria is
        less restrictive than the Centers for Disease Control and Prevention’s (CDC)
        definition of having AIDS. Other States paying an AIDS-adjusted rate use
        CDC’s definition of AIDS.

8. 	    Persons with HIV refers to persons who are HIV positive but are not
        symptomatic with AIDS. Persons with AIDS refers to persons who are
        symptomatic with the AIDS virus.

9. 	    Some MCOs require preauthorization       of certain services and drugs, including
        protease inhibitors. Recently, physicians at the University of New Mexico (not
        one of the States in this evaluation) reported difficulties in getting MC0
        approval for drugs to treat HIV.

10. 	   The HCFA currently is gathering similar information       for patients with End-
        Stage Renal Disease.



                                           D-2 

11. 	   “The Adequacy of Reimbursement for HIV under Section 1115 Medicaid
        Waivers”, Richard Conviser, Ph.D., Deanna Kerrigan, M..P.H., and Stephen
        Thompson, M.A., Office of Science and Epidemiology, HIV/AIDS    Bureau,
        HRSA, US DHHS, July 1997.




                                      D-3 

